                  NATIONAL ENDOWMENT FOR THE ARTS
                     OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION
                                                    OF

                                 Sphinx Organization
                                             Detroit, MI


                                 REPORT NO. SCE-09-05
                                   September 23, 2009




                               REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the
National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those intended
without prior consultation with the NEA Office of Inspector General regarding its applicability.
                                   INTRODUCTION


BACKGROUND

Sphinx Organization is a national non-profit founded in 1996 by Aaron P. Dworkin. He founded
the organization to help overcome the cultural stereotype of classical music, and to encourage the
participation of Blacks and Latinos in the field. Sphinx Organization has reached over 65,000
students, in 175 schools, and over 2 million individuals through national broadcasts. Sphinx
Organization has also provided over $190,000 in instruments to young minority musicians.
Sphinx Organization’s mission is to increase the participation of Blacks and Latinos in music
schools, as professional musicians, and as classical music audiences.


OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the National
Endowment for the Arts (NEA) Office of Inspector General (OIG) is to determine whether the
organization’s financial management system and recordkeeping complies with the requirements
established by the Office of Management and Budget (OMB) and NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms). The
evaluation was conducted in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections, as applicable.


PRIOR AUDIT COVERAGE


During the past five years, the NEA OIG has not issued any audit reports on Federal grants
awarded to Sphinx Organization. As of our October 7, 2008 site visit, the most recent issued
independent auditor’s report on the financial statements of Sphinx Organization was for the year
ended December 31, 2007. The audit was conducted by Plante & Moran, PLLC, which issued an
unqualified (clean) opinion. Sphinx Organization was not subject to the audit requirements of
OMB Circular A-133.



                           RESULTS OF EVALUATION

Our evaluation concluded that Sphinx Organization did not report accurate expenditure amounts
on its Financial Status Report. The Sphinx Organization did not maintain personnel activity
reports (time and effort reports) and did not have documentation for in-kind expenses. Sphinx
Organization also did not have a Section 504 self-evaluation on file. Details are presented in the
following narrative.




                                                                                                 1
REPORTED EXPENDITURES
For the grant reviewed (Grant No. 07-3100-7100) the Sphinx Organization did not report actual
expenditures on its Financial Status Report to the NEA. The amount reported on the Financial
Status Report (FSR) was $395,500 which reflected the projected budget amount instead of actual
expenditures. A list of expenditures provided by Sphinx Organization showed costs totaling
$195,671.

Sphinx Organization included projected budget amounts for salaries and wages, supplies and
materials, telephone and in-kind expenses in their total outlays on the FSR; however, there was
no documentation in the general ledger for these expenses. As a result, we are questioning the
unsupported cost in the amount of $199,829. However, if all the unsupported costs were
disallowed the Sphinx Organization would still meet the matching requirements therefore we are
not requesting any further documentation. We are recommending that procedures be
implemented to ensure that actual expenditures for the specific grant period are reported on final
Financial Status Reports.

The NEA Instructions for Completing the Financial Status Report states that grantees “indicate
total actual project outlays” on its report. It also notes “total actual costs will likely differ from
the amount anticipated in the approved budget.”


PERSONNEL ACTIVITY REPORTS
The Sphinx Organization did not maintain personnel activity (time and effort) reports for the
above grant, which was awarded $55,000 for the period January 1, 2007 to December 31, 2007.
At the time of the award, personnel activity reports were required for all employees whose
salaries and fringe benefits were charged, in whole or in part, to either the award or the matching
funds if the award is $50,000 or more. This requirement is mandated by OMB and is detailed in
NEA’s General Terms. A sample personnel activity report is also provided in the General
Terms.

We are recommending that the Sphinx Organization develop procedures to ensure that time and
effort reports are maintained for employees whose salaries are charged, in whole or in part to
grant awards that are $50,000 or more.


IN-KIND COSTS
The Sphinx Organization included in-kind costs in its reported total outlays on the FSR.
However, the Sphinx Organization did not maintain an explanation of the basis for the valuation
of each item or any supporting documentation for in-kind costs.

We are recommending that procedures be implemented to ensure that the Sphinx Organization
maintain supporting documentation for all in-kind expenditures for any current or future grants.

                                                                                                         2
SECTION 504 SELF-EVALUATION
Sphinx Organization did not have a Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” The NEA
Civil Rights Office now provides a Section 504 Self-Evaluation Workbook (which covers
programs, activities and facilities) online at www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs.


EXIT CONFERENCE
An exit conference was held with Sphinx Organization officials on October 7, 2008 with a
follow-up telephone call on September 8, 2009. They generally concurred with our findings and
recommendations.


                                RECOMMENDATIONS
We recommend that Sphinx Organization:

   1. Implement procedures to ensure that actual expenditures are reported on final Financial
      Status Reports.

   2. Develop procedures to ensure that personnel activity (time and effort) reports are
      prepared for employees whose salaries are charged, in whole or in part, to grant awards
      that are $50,000 or more.

   3. Implement procedures to ensure that supporting documentation is maintained for all in-
      kind expenditures.

   4. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act
      of 1973, as amended. (A copy of this document will be provided to the NEA’s Civil
      Rights/EEO Office.)




                                                                                                      3
